                                                       U.S. DEPARTMENT OF
                                      HOUSING AND URBAN DEVELOPMENT
                                               OFFICE OF INSPECTOR GENERAL




                                                                      Memorandum No: 2012-NY-1802

September 28, 2012


MEMORANDUM FOR: Vincent Hom, Director, Office of Community Planning and
                Development, 2ADM1



FROM:           Edgar Moore, Regional Inspector General for Audit, New York, New Jersey, 2AGA


SUBJECT: Village of Spring Valley, NY, Hotline Complaint
         Federal Housing Finance Agency Complaint Number Z-12-0445-1


                                                  INTRODUCTION

The U.S. Department of Housing and Urban Development (HUD), Office of Inspector General
(OIG), conducted a review of the Village of Spring Valley, NY, a subrecipient of Rockland
County, NY. On February 22, 2012, the Federal Housing Finance Agency (FHFA) OIG referred
a confidential complaint (FHFA complaint number Z-12-0445-1) to HUD OIG’s, Program
Integrity (hotline) Division. On February 27, 2012, the Division referred the hotline complaint
to Region 21’s Office of Audit for review. The complaint alleged that the Village (1) used
eminent domain and Federal funds to seize property, (2) transferred ownership of properties to a
developer to be sold at higher prices, and (3) allowed the developer to build segregated housing
on the property as part of an urban renewal project. The objectives of the review were to
determine whether the complaint alleging the use of eminent domain and Federal funds to seize
and develop properties in the Village had merit and whether the Village used HUD funds as part
of its urban renewal project in accordance with applicable rules and regulations.

This memorandum report contains three recommendations. In accordance with HUD Handbook
2000.06, REV-4, within 60 days, please provide us, for each recommendation in this
memorandum, a status report on (1) the corrective action taken, (2) the proposed corrective
action and the date to be completed, or (3) why action is considered unnecessary. Additional
status reports are required 90 and 120 days after this memorandum is issued for any


1
    Region 2 includes the entire states of New York and New Jersey.
                                                            Office of Audit,
                                                   New York/New Jersey Region 2
                                                      26 Federal Plaza, Room 3430
                                                         New York, NY 10278
                                             Phone (212) 264-4174, Fax (212) 264-1400
                                  Visit the Office of Inspector General Website at www.hudoig.gov
recommendation without a management decision. Also, please furnish us copies of any
correspondence or directives issued because of this review.

Should you or your staff have questions, please contact Karen A. Campbell, Assistant Regional
Inspector General for Audit, at (212) 542-7977.


                               METHODOLOGY AND SCOPE

To accomplish our objectives, we

      Obtained and reviewed relevant HUD Community Development Block Grant (CDBG)
       program and HOME Investment Partnerships Program regulations, applicable notices,
       and Code of Federal Regulations requirements applicable to our review objectives;
      Interviewed HUD, grantee, and subrecipient key personnel;
      Reviewed applicable CDBG funding approvals and HOME agreements;
      Reviewed applicable subreceipient and grant agreements;
      Obtained and reviewed the applicable urban renewal plan, project amendments, and
       monitoring report;
      Reviewed the Village’s audited financial statements for the fiscal years ending May 31,
       2005, May 31, 2006, and May 31, 2007;
      Obtained and reviewed CDBG and HOME drawdown data from HUD’s Integrated
       Disbursement and Information System;
      Reviewed applicable urban renewal project contracts funded by CDBG and HOME
       funds; and
      Reviewed property records for the properties acquired by the Village using the Internet
       and Lexis-Nexis.com.

We performed our onsite work from May through June 2012 at the Rockland County Office of
Community Development, located at 50 Sanatorium Road, Building K, Pomona, NY. The
review period covered July 1, 2003, to June 30, 2008, and was expanded as deemed necessary.
We tested 100 percent of the disbursements made by Rockland County (grantee) to the Village
(subrecipient) during the review period. We tested a total of $1.54 million, which consisted of
$945,000 in CDBG expenditures and $598,575 in HOME expenditures.


                                       BACKGROUND

The Village is a subrecipient of Rockland County, NY, an entitlement recipient of CDBG and
HOME funds. The Village was established in 1902 and operates in accordance with the Village
Law and various other applicable laws of the State of New York. The Village Board of Trustees
is the legislative body responsible for overall operations. The mayor serves as the chief
executive officer and the Village treasurer serves as the chief financial officer. The Village
provides the following services to its residents: public safety, health, transportation, economic




                                                2
opportunity and development, culture and recreation, home and community services, and general
and administrative support.

The Village was awarded a total of $1.5 million in HUD funds from Rockland County,
consisting of $945,000 in CDBG funds and $598,575 in HOME funds for the urban renewal
project. It entered into yearly subrecipient agreements with the grantee from 2003 through 2006
for the urban renewal project. The project comprised of a Main Street revitalization project,
which included streetscapes and lighting to revitalize the downtown Main Street business district
in the Village. The objectives of the urban renewal project were to (1) eliminate blight
conditions within the project area and (2) improve conditions of deteriorated or dilapidated
buildings within the project area. Additionally, the Village acquired and demolished properties
as part of the project. The boundaries of the project area included approximately 15 blocks along
Main Street in the central portion of the Village. The project was supplemented with funds from
a grant from the Empire State Development Corporation, the issuance of bonds, and funds from
the Village.

The Community Development Block Grant (CDBG program was established by Title I of the
Housing and Community Development Act of 1974 (Public Law 93-383). The program provides
grants to State and local governments to aid in the development of viable urban communities.
Governments are to use grant funds to provide decent housing and suitable living environments
and expand economic opportunities, principally for persons of low and moderate income. To be
eligible for funding, every CDBG-funded activity must meet one of the program’s national
objectives. Specifically, every activity, except for program administration and planning, must

      Benefit low- and moderate-income persons,
      Aid in preventing or eliminating slums and blight, or
      Address a need with a particular urgency because existing conditions pose a serious and
       immediate threat to the health or welfare of the community.

The HOME Investment Partnerships program, authorized under Title II of the Cranston-
Gonzalez National Affordable Housing Act, as amended, is designed to create affordable
housing for low-income households. The program provides formula grants to States and
localities that communities use, often in partnership with local nonprofit groups, to fund a wide
range of activities that build, buy, or rehabilitate affordable housing for rent or home ownership
or provide direct rental assistance to low-income people.


                                    RESULTS OF REVIEW

Our review determined that although the facts of some of the allegations were valid and
substantiated, the Village generally used HUD funds in accordance with applicable rules and
regulations for its urban renewal project. Thus, no further action is required. Specifically, the
first and second allegations regarding seizure of property under the auspices of eminent domain
and the transfer of ownership of these properties were valid; however, such actions are allowable
under HUD rules and regulations. Further, the portion of the second allegation regarding the
selling of the seized properties at higher prices did not have merit for any of the properties



                                                 3
acquired with HUD funds. The third allegation, regarding the developer building segregated
housing, is discriminatory in nature and will be referred to HUD’s Office of Fair Housing and
Equal Opportunity.

The Village received $102,438 in CDBG funds from Rockland County to acquire a property for
which it could not provide documentation to support that a national objective of the CDBG
program was met. Also, the Village did not inform the grantee of $825,000 in program income
earned from the sale of property site 3 to a developer. The specific results of the review are
discussed below.

Seizure of Property Using Eminent Domain and HUD Funds

The allegation that the Village used eminent domain and Federal funds to seize property was
valid and substantiated, as well as the acquisition of property, which is an allowable CDBG
activity if funding was used before fiscal year 2006. Federal Register, Docket No. FR-5077-N-
01, dated July 17, 2006, prohibited the use of fiscal year 2006 funds for eminent domain-related
activities. Specifically, the Village used approximately $773,438 in Federal funds (consisting of
$573,438 in CDBG and $200,000 in HOME funds) from program years 2003 through 2005
funding to acquire five properties for use in its urban renewal project. The Village’s urban
renewal project included acquisition, relocation, and demolition of properties to enhance the
Village’s downtown area. The properties acquired using CDBG and HOME funding became
property sites 1, 2, 3, and 4 of the project. Property sites 1 and 2 were incomplete at the time of
our review; however, $102,438 in CDBG funds was used to acquire one property on property
site 1. Property site 3 included one property acquired with $66,000 in CDBG funds, and
property site 4 included three properties acquired with a total of $405,000 in CDBG funds and
$200,000 in HOME funds. Property sites 3 and 4 were constructed to senior and family rental
buildings to provide affordable housing. Each rental building included commercial space on the
ground floor to be used for retail and services. HUD funding was also used to plan and demolish
the properties at sites 1, 2, 3, and 4 for the project. Nevertheless, the Village complied with
HUD rules and regulations when it acquired property for its urban renewal project using eminent
domain and HUD funds.

Transfer of Property Ownership

The allegation that the Village later transferred ownership of the acquired property was also
valid. All properties acquired using HUD funding were transferred to developers for use in the
urban renewal project. The transfer of ownership to a developer is allowable under HUD rules
and regulations. Further, the transfer was necessary to proceed with the project to develop the
sites in accordance with the Village’s urban renewal plan. The second part of the allegation,
alleging that the properties were transferred to the developer and sold at higher prices did not
have merit for the properties acquired with HUD funds. In March of 2006, the Village used
CDBG funds to acquire one property on property site 3. Additionally, CDBG funds were used
for the planning and other costs pertaining to this site. In February 2008, the Village sold
property site 3 (location of planned senior rental housing) to a developer for $825,000.
Nevertheless, the Village complied with HUD rules and regulations when it transferred property
ownership for its urban renewal project.



                                                 4
Segregated Housing

The allegation that the developer built segregated housing is discriminatory in nature. Therefore,
we plan to make a referral to HUD’s Office of Fair Housing and Equal Opportunity.

Unsupported CDBG Funds Disbursed

The Village disbursed $102,438 in CDBG funds to acquire a property for which it could not
provide documentation to support that a national objective of the CDBG program was met. This
condition occurred because the Village transferred the property to a developer without informing
Rockland County. Regulations at 24 CFR (Code of Federal Regulations) 570.208 provide that to
be eligible for funding, every CDBG-funded activity must meet one of the three national
objectives of the CDBG program: (1) benefit low- and moderate-income persons, (2) aid in
prevention or elimination of slums and blight, or (3) address a need with a particular urgency
because existing conditions pose a serious and immediate threat to the health or welfare of the
community. Since property sites 1 and 2 had not been completed, there was no marketing plan
in place to describe the uses of these sites. As a result, $102,438 in CDBG funds used for the
acquisition and associated expenses was considered unsupported. We recommend that the
Village provide documentation to support that the $102,438 in CDBG funds met one of the three
CDBG national objectives.

Program Income Not Recorded

The Village did not inform Rockland County of program income it earned from the sale of a
property to a developer for property site 3. The Village acquired a property and paid planning,
demolition, and other expenses related to site 3 using CDBG funds for its urban renewal project.
Regulations at 24 CFR 570.500(a)(1) provide that program income is defined by gross income
received by the recipient or subrecipient directly generated from the use of CDBG funds. This
condition occurred because the Village sold property site 3 of the urban renewal project without
informing Rockland County. Therefore, Rockland County could not report program income to
HUD and did not have an accurate accounting of the program income earned by the Village. The
resulting $825,000 in sales proceeds from property site 3 should have been reported to HUD and
recorded in HUD’s Integrated Disbursement and Information System. Thus, the $825,000
earned by the Village from the property sale was considered ineligible and should have been
used to offset future CDBG costs. As a result, the funds should be repaid to the grantee’s CDBG
line of credit from non-Federal funds so that the funds can be used before additional CDBG
drawdowns are requested.


                                        CONCLUSION

Our review determined that two of the allegations in the complaint had merit and HUD funds
were generally used in accordance with applicable rules and regulations for the Village’s urban
renewal project. However, $102,438 was used for unsupported costs, and $825,000 in program
income was not recorded. The third allegation, pertaining to segregated housing, will be referred
to HUD’s New York Office of Fair Housing and Equal Opportunity.



                                                5
                                  RECOMMENDATIONS

We recommend that the Director of HUD’s New York City Office of Community Planning and
Development instruct Rockland County officials to require the Village to

1A.   Provide documentation to justify that the $102,438 in unsupported CDBG funds used to
      acquire property meets one of the three CDBG national objectives. Any costs determined
      to be ineligible should be reimbursed from non-Federal funds.

Further, we recommend that the Director of HUD’s New York City Office of Community
Planning and Development instruct Rockland County officials to
1B.   Record the unreported program income of $825,000 related to the sale of property site 3 in
      HUD’s Integrated Disbursement and Information System so that these funds can be used
      before additional CDBG funds are drawn down.
1C.   Strengthen controls over the recognition and reporting of program income to ensure that
      all program income is properly recorded in HUD’s Integrated Disbursement and
      Information System and used before future CDBG funds are drawn down.




                                              6
                                   APPENDIXES


Appendix A

                 SCHEDULE OF QUESTIONED COSTS

                  Recommendation
                                          Ineligible 1/      Unsupported 2/
                      number
                              1A                                 $102,438
                              1B                  $825,000


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or Federal, State, or local
     policies or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of the audit. Unsupported
     costs require a decision by HUD program officials. This decision, in addition to
     obtaining supporting documentation, might involve a legal interpretation or clarification
     of departmental policies and procedures.




                                              7
Appendix B
      AUDITEE COMMENTS AND OIG’S EVALUATION
    Auditee officials agree with the results of the review and declined to provide written
    comments.




                                             8
